                       U.S. Department of Agriculture

                          Office of Inspector General
                                 Great Plains Region




             Audit Report

      Agricultural Marketing Service
Contract and Competitive Bidding Practices




                              Report No. 01601-1-KC
                                      January 2005
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




DATE:          January 31, 2005

REPLY TO
ATTN OF:       01601-1-KC

SUBJECT:       Agricultural Marketing Service Contract and Competitive Bidding Practices

TO:            A. J. Yates
               Administrator
               Agricultural Marketing Service

ATTN:         David N. Lewis
              Deputy Administrator
              Compliance and Analysis Program


This report presents the results of our audit of Agricultural Marketing Service Contract and
Competitive Bidding Practices. Your January 13, 2005, written response to the official draft
report is included as exhibit A with excerpts and the Office of Inspector General’s position
incorporated into the Findings and Recommendations section of the report, where applicable.

We accept the management decisions for all recommendations. Please follow your agency’s
internal procedures in forwarding documentation for final action to the Office of the Chief
Financial Officer (OCFO). We are providing a separate memorandum to your agency and
OCFO that provides specific information on the actions to be completed to achieve final action.

We appreciate the cooperation and assistance provided to our staff during the audit.


/s/


ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Agricultural Marketing Service, Contract and Competitive Bidding Practices
(Audit Report No. 01601-1-KC)

Results In Brief                 This review was performed to assess the sufficiency of the Agricultural
                                 Marketing Service’s (AMS) internal controls to prevent and detect
                                 potential collusive bidding activities and whether identified activities or
                                 complaints were properly referred to the Office of Inspector General
                                 (OIG) or the U.S. Department of Justice (DOJ).

                                 (AMS), along with the Farm Service Agency (FSA), are responsible for
                                 purchasing a variety of food products through competitive bids or
                                 negotiated contracts in support of the National School Lunch Program
                                 and other Federal feeding programs that are administered by the Food
                                 and Nutrition Service (FNS). AMS purchases red meat, fish, poultry,
                                 eggs, fruit, and vegetable products.

                                 For the school year1 2002-2003, AMS commodity purchases totaled
                                 over $900 million for over 1.4 billion pounds of food products. To
                                 make these purchases, AMS utilizes an automated computer system
                                 called the Processed Commodity Inventory Management System
                                 (PCIMS). AMS, along with FSA and FNS, share this automated
                                 system for the acquisition, management, storage, disposition,
                                 transportation, and accounting activities for processed commodities and
                                 uses PCIMS to analyze electronically submitted bids and award
                                 contracts based on the bidders’ prices and constraints. Bids are
                                 electronically submitted to AMS and FSA through the Domestic
                                 Electronic Bid Entry System (DEBES).

                                 Our review disclosed that AMS personnel performed little detailed
                                 analyses of commodity procurement bids in order to identify potential
                                 antitrust activities, such as collusive bidding, among vendors. AMS does
                                 not use any automated software mechanism to evaluate historical vendor
                                 bid data by commodities for patterns of potential antitrust violations.
                                 Although AMS uses PCIMS reports to analyze bidding and award data,
                                 AMS does not perform the in-depth trend analysis of historical data that is
                                 necessary to identify indications of collusive bidding activities. We also
                                 found that, since 1999, AMS has not provided training for identifying
                                 collusive bidding activities to its contracting officers.




1
    A school year starts on July 1st and ends on June 30th of the following year.

USDA/OIG-A/01601-1-KC                                                                                Page i
                   Similar findings were noted with respect to our previous audit of FSA
                   and Commodity Credit Corporation (CCC) Bidding Procedures and
                   Awards for Commodities (Audit Report No. 03008-2-KC dated
                   September 25, 2003). As a result of our report, FSA is in the process of
                   developing and implementing an automated system for identifying
                   potential collusive bidding patterns.

                   Since AMS and FSA utilize the same automated computer systems for
                   conducting commodity procurements, we believe that both agencies
                   would benefit by coordinating their activities related to shared
                   implementation of an automated system for tracking and analyzing bids
                   for potential antitrust activity.

Recommendations
In Brief           We recommended that AMS coordinate with FSA in developing and
                   implementing an automated computer software package to analyze
                   historical vendor bid information on an ongoing basis for providing
                   potential leads of collusive bidding practices. The shared system
                   should be capable of analyzing data for both FSA and AMS. If a
                   shared system with FSA is not feasible, AMS should develop in-house
                   or contract from outside sources for an automated computer software
                   package that can adequately analyze historical vendor bid information
                   on an ongoing basis and provide potential leads on collusive bidding
                   practices for procuring commodities. We also recommended that AMS
                   develop and implement internal procedures requiring the review and
                   analysis of commodity bids for indications of collusion. AMS
                   management should make antitrust enforcement a fundamental feature of
                   AMS commodity procurement activities by having procurement staff
                   evaluate historical vendor bid information on a continuous basis and
                   provide the DOJ or OIG with referrals of suspected collusions or other
                   antitrust activity as appropriate.

Agency Response   In its January 13, 2005, response to the official draft report, AMS
                  agreed in principal with the findings and recommendations presented
                  therein. The response provided specific actions the agency has taken, or
                  plans to take, as well as timeframes for implementing proposed actions
                  for each recommendation. We have incorporated applicable portions of
                  the response, along with our position, in the Findings and
                  Recommendations section of this report. The AMS response is included
                  in its entirety as exhibit A.

OIG Position      We concur with AMS’ proposed corrective actions and have accepted
                  management decisions for all recommendations.




USDA/OIG-A/01601-1-KC                                                               Page ii
Abbreviations Used in This Report


AGAR                Agriculture Acquisition Regulations
AMS                 Agricultural Marketing Service
CCC                 Commodity Credit Corporation
DEBES               Domestic Electronic Bid Entry System
DOJ                 U.S. Department of Justice
FAR                 Federal Acquisition Regulation
FNS                 Food and Nutrition Service
FSA                 Farm Service Agency
OIG                 Office of Inspector General
OCFO                Office of the Chief Financial Officer
PCIMS               Processed Commodity Inventory Management System
USDA                U.S. Department of Agriculture




USDA/OIG-A/01601-01-KC                                                Page iii
Table of Contents

Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ iii

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 5

    Section 1. Bid Analysis for Potential Antitrust Activity Among Vendors ......................... 5

                                    Recommendation No. 1.......................................................................... 9
                                    Recommendation No. 2........................................................................ 10
                                    Recommendation No. 3........................................................................ 11
                                    Recommendation No. 4........................................................................ 11

Scope and Methodology.............................................................................................................. 12

Exhibit A – Agency Response .................................................................................................... 14




USDA/OIG-A/01601-01-KC                                                                                                          Page iv
Background and Objectives
Background         The Agricultural Marketing Service (AMS) purchases, with
                   appropriated funds, a variety of food products through competitive bids
                   or negotiated contracts in support of the National School Lunch
                   Program and other Federal feeding programs. AMS operates the
                   procurement programs primarily using funding under Section 32 of the
                   Agriculture Adjustment Act. AMS makes these purchases to help
                   stabilize prices in agricultural commodity markets by balancing supply
                   and demand. AMS purchased over 1.4 billion pounds of food products
                   totaling over $900 million for school year 2002-2003.

                   AMS oversees six commodity programs--Cotton, Dairy, Fruit and
                   Vegetable, Livestock and Seed, Poultry, and Tobacco.           Each
                   commodity program employs specialists who provide standardization,
                   grading, and market news services. The specialists enforce such
                   Federal laws as the Perishable Agricultural Commodities Act and the
                   Federal Seed Act. AMS commodity programs also oversee marketing
                   agreements and orders, administer research and promotion activities,
                   and purchase non-price supported commodities for Federal food
                   assistance. AMS Livestock and Seed, Poultry, and Fruit and Vegetable
                   divisions are responsible for conducting all the agency’s commodity
                   procurements.

                   Within the U.S. Department of Agricultural (USDA), AMS and the
                   Farm Service Agency (FSA) coordinate with the Food and Nutrition
                   Service (FNS) to purchase and supply commodities used for domestic
                   feeding programs. Purchases are coordinated with FNS to assure the
                   quantity, quality, and variety of commodities purchased meet the
                   desires of schools and institutions participating in the domestic
                   nutrition programs. Although AMS and FSA purchase the commodity
                   food products for these Federal feeding programs, FNS actually
                   administers the distribution of program benefits to participants. After
                   AMS commodity purchase contracts have been awarded, FSA takes
                   over the administration of the contracts, including making payments to
                   vendors to whom contracts have been awarded, ensuring the proper
                   storage of commodities when needed, and facilitating the distribution
                   and transportation of the commodities to the ultimate locations.

                   The Federal Acquisition Regulation (FAR) applies to most Federal
                   executive agencies in the acquisition of supplies and services with
                   appropriated funds. FAR Part 14 provides the regulations for
                   acquisitions made by sealed bidding, which includes most of AMS
                   purchases. On a very few occasions AMS makes purchases using


USDA/OIG-A/01601-01-KC                                                             Page 1
                               negotiated contracts, However, for the 2002–2003 school year, AMS
                               did not make any commodity purchases using negotiated contracts.

                               The Agriculture Acquisition Regulations (AGAR) located in the Code
                               of Federal Regulations Title 48, chapter 4, prescribes departmental
                               regulations that implement and supplement the FAR. The AGAR must
                               be used in conjunction with the FAR. The AGAR Part 414 and
                               Part 415 provide additional regulation pursuant with the FAR for sealed
                               bidding and negotiated contracts, respectively. In addition, bidders
                               must follow specific Agricultural regulations2 for the procurement of
                               agricultural commodities.

                               Commodities are purchased from various commercial sources through
                               regularly scheduled solicitations (invitations) and bid processes.
                               Invitations may be scheduled on a weekly, monthly, bimonthly,
                               quarterly, semi-annual, or long-term basis to meet program
                               commitments. Also, some commodities such as fruits and vegetables
                               are purchased only on a seasonal basis. AMS receives food
                               requisitions orders or delivery orders from various agencies and
                               organizations through FNS. AMS then reviews and adjusts the
                               requisition orders or delivery orders to develop a work list of items to
                               be purchased by a particular delivery period or date. Work lists are
                               processed through the automated Processed Commodity Inventory
                               Management System (PCIMS).

                               The actual purchase process begins when AMS develops
                               announcements, which provide technical requirements, product
                               descriptions, and other bid and contract provisions to the vendors.
                               Companies meeting the required specifications can apply with AMS by
                               submitting a technical proposal. AMS marketing specialists use the
                               automated PCIMS to create the invitations in coordination with FNS.
                               PCIMS generates an invitation file from which the applicable invitation
                               detail is downloaded for each commodity. PCIMS also generates an
                               invitation detailing the solicitation terms which include: the delivery
                               periods, total pounds, small business program requirements
                               (if applicable), offer due dates and times, and dates and times of
                               Notification of Award and Public Release of Award information, as
                               well as other specifications and certifications.

                               AMS maintains a web site where the procurement, solicitation detail,
                               and award information are posted. Invitations are also posted on the
                               AMS web site and an electronic mail message and/or a fax is sent to the
                               commodity vendors. AMS utilizes the Domestic Electronic Bid Entry
                               System (DEBES) for receiving contract bids and the PCIMS for
                               analyzing bids and awarding contracts. For each invitation, vendors
2
    USDA-1, General Terms and Conditions for the Procurement of Agricultural Commodities or Services.

USDA/OIG-A/01601-01-KC                                                                                  Page 2
                   submit bids electronically via the DEBES, a real-time web-based
                   computer system. Within DEBES, vendors can submit, withdraw, and
                   modify bids until the invitation’s prescribed closing time. DEBES will
                   not allow vendors to submit or modify bids after the closing time. For
                   each invitation and depending on the type of commodity purchased,
                   vendors have from 2 to 11 days to submit an offer via the DEBES.
                   After the bid closing time, AMS marketing specialists will access
                   DEBES, to review the bids for obvious errors or unreasonable bids,
                   such as a decimal position error, and print out a bidder log. The bid
                   data in DEBES are transferred to PCIMS, which allows the AMS
                   marketing specialists to analyze bids using various analytical tools.
                   Once the bids have been analyzed and either accepted or rejected by
                   AMS management, the marketing specialists use PCIMS to award the
                   contracts.

                   The bid analyses are normally completed within 1 to 3 days after the
                   final offers and invitations are opened, depending on the type of
                   commodity. Successful vendors are notified via an acceptance wire,
                   which is faxed to the vendor, usually, on the same day of the
                   acceptance of the bid offers. The Public Release of Awards are also
                   posted to the AMS website between 12:00 P.M., Central Standard Time
                   (CST) and 4:00 P.M. (CST) on the day of the award, depending on the
                   type of commodity.

                   Vendors who are eligible to participate in AMS programs must submit
                   annual certifications, representations, and warranties. Included in the
                   certifications is the “Certificate of Independent Price Determination.”
                   The vendor certifies that the person submitting the bid is either the
                   person responsible for determining the prices offered in the bids, or the
                   authorized agent for the principal (usually the vendor). In either case,
                   the vendor certifies that the vendor’s actions taken to obtain the prices
                   offered do not violate department regulations. Article 30 of USDA-1
                   has three stipulations that the vendor or offeror certifies: 1) the prices
                   in the offer have been arrived at independently; 2) the prices in the
                   offer have not been knowingly disclosed by the offeror to any other
                   offeror or competitor before bid opening; and 3) no attempt has been
                   made by the offeror to induce any other concern to submit or not
                   submit a bid for purpose of restricting trade.

                   The U.S. Department of Justice’s (DOJ) Antitrust Division encourages
                   agency personnel to recognize common collusive bidding patterns
                   including bid suppression, complementary bidding, bid rotation, and
                   market division. Bid suppression occurs when one or more competitors
                   (who would otherwise be expected to bid) refrain from bidding or
                   withdraw a previously submitted bid, so that a competitor’s bid will be
                   accepted. Complementary bidding occurs when competitors submit

USDA/OIG-A/01601-01-KC                                                                Page 3
                   token bids that are too high to be accepted or submit special terms that
                   will not be accepted. Bid rotation is when all vendors participating in
                   the scheme submit bids, but by agreement, take turns being the low
                   bidder or take turns on the size of the contract. Market division
                   schemes are agreements between vendors to refrain from competing in
                   designated portions of the market.

Objectives         Our primary objectives were (1) to assess the sufficiency of AMS
                   management controls to prevent and detect potential collusive bidding
                   activities in procuring commodities and (2) to determine whether
                   identified collusive bidding activities or complaints of bid rigging were
                   properly referred to the OIG or DOJ, where warranted.




USDA/OIG-A/01601-01-KC                                                               Page 4
Findings and Recommendations
Section 1. Bid Analysis for Potential Antitrust Activity Among Vendors

Finding 1                  AMS Needs to Improve Analysis and Awareness of Potential
                           Antitrust Activity Among Vendors

                           AMS personnel performed little detailed analyses of ongoing commodity
                           procurement bids to identify potential antitrust activities among vendors,
                           such as collusive bidding. In addition, we found AMS did not use any
                           automated software mechanism to evaluate historical vendor commodity
                           bid data for patterns of potential antitrust violations. These conditions
                           existed, in part, because AMS emphasizes analysis of market conditions
                           to make commodity purchases rather than evaluating current or historical
                           bid data to monitor or detect potential antitrust activity among its vendors.
                           However, AMS personnel stated they did review bids for inconsistencies
                           and based on their collective knowledge of their bidders and market
                           conditions, they would know whether bidders were involved in collusive
                           bidding activities. Also, AMS officials believe that if collusive bidding
                           occurred, it would have a nominal effect on agency purchases. With
                           AMS placing little emphasis on detecting antitrust activity, we noted that
                           AMS does not have written policies, procedures, or a structured process
                           to specifically evaluate commodity bids to identify antitrust activities. As
                           a result, there is reduced assurance that potential cases of antitrust
                           activities will be detected and referred for investigation for commodity
                           procurement programs ranging from approximately $850 to over
                           $900 million annually.

                           The FAR states that contracting personnel are a significant source for
                           providing investigative leads against antitrust violators and should be
                           sensitive to signs of unlawful vendor conduct.3 In addition, the FAR
                           states that agencies are required by 41 U.S.C. §253b(i) and 10 U.S.C.
                           §2305(b)(9) to report to the Attorney General any bids or proposals that
                           evidence a violation of the antitrust laws. Any agreement or mutual
                           understanding among competing firms that restrains the natural
                           operation of market forces is suspect.4 The AGAR states that
                           contracting officers shall report the circumstances of suspected violations
                           of antitrust laws to the OIG in accordance with procedures in
                           Departmental Regulation.5

                           The FAR list numerous activities that are not necessarily improper, but
                           are sufficiently questionable to warrant notifying the appropriate
                           authorities. Several of the practices would require that procurement
3
  See FAR, subpart 3.301
4
  See FAR, subpart 3.303
5
  See AGAR subpart 403.303 and Departmental Regulations DR 1700 series

USDA/OIG-A/01601-01-KC                                                                          Page 5
                                personnel track historical bid data and contract awards. These practices
                                listed in the FAR include: (1) the existence of an “industry price list” or
                                “price agreement” to which contractors refer in formulating their offers;
                                (2) a sudden change from competitive bidding to identical bidding; (3)
                                simultaneous price increases or follow-the-leader pricing; (4) rotation of
                                bids or proposals so that each competitor takes a turn in sequence as low
                                bidder, or so that certain competitors bid low on some sizes of contracts
                                and high on other sizes; (5) division of the market so that certain
                                competitors bid low only for contracts in certain geographical areas, or on
                                certain products, or (6) establishment by competitors of a collusive price
                                estimating system. In addition, under this section of the FAR, agencies
                                are to report identical bids if the agency has reason to believe that the bids
                                were the result of collusion among the competitors.6

                                In a DOJ publication for procurement professionals, the DOJ advises that
                                collusion is most likely to occur in industries where (1) there are only a
                                few sellers of the product, (2) the product cannot easily be substituted for
                                another product, (3) the product is more standardized and it is easier for
                                competing firms to reach agreement on a common price, (4) repetitive
                                purchases may increase the chance of collusion, (5) competitors know
                                each other well, and (6) bidders congregate in the same place to submit
                                bids. The DOJ cautioned that while these indicators may arouse
                                suspicion of collusion, they are not proof of collusion. Rather, indicators
                                of collusion merely call for further investigation to determine whether or
                                not collusion exists. Most of these conditions exist within AMS
                                processed commodity purchase programs. For example, we reviewed
                                AMS purchases of one-pound tubes of fine ground beef for the period of
                                July 2003 through May 2004. During this period, AMS purchased a total
                                of 5,920,000 pounds of fine ground beef tubes totaling over $9 million
                                from various invitations. We noted that the number of bidders ranged
                                from one to four and on two occasions only one bidder responded. We
                                also noted that one vendor received contracts on 10 of the 11 invitations.

                                Our review disclosed that AMS marketing specialists do not perform a
                                detailed analysis of bids to detect potential antitrust activity. We
                                observed the bid opening, bid analysis, and contract award processes of
                                one AMS commodity invitation. We noted that AMS procedures
                                emphasized an analysis of items such as bid prices, market prices, and
                                margins; however, AMS personnel did not make any attempt to
                                evaluate bids or track bid patterns for antitrust activity. During the
                                observation process, we specifically inquired about duties related to
                                detection of collusive bidding. An AMS marketing specialist stated
                                that obvious signs of collusive bidding such as excessive numbers of tie
                                bids, or bids significantly higher than the estimated range of market


6
    See FAR subpart 3.303 (b) (c) and (d)

USDA/OIG-A/01601-01-KC                                                                                Page 6
                   prices, are to be brought to the attention of the AMS contracting
                   officers.

                   AMS marketing specialists evaluate domestic processed commodity
                   bids by using reports generated by PCIMS. The Log of Bidders shows
                   the vendor, the vendor’s identification number, and whether or not
                   PCIMS recommends the vendor’s bid be accepted or rejected. PCIMS
                   bases the acceptance or rejection of the bids on lowest prices and
                   vendors’ constraints. The Bidder Constraints Proof List shows the
                   quantities a vendor wants to bid on for selected locations for the
                   invitation and the Destination Price Bid Array report shows each line
                   item and the vendors’ bid for each line item. The Destination
                   Evaluation Report by Vendor shows each vendor, the line items (i.e.,
                   types of commodities) they should be awarded, and pertinent
                   information such as quantity, price, and destination.

                   The marketing specialists’ reviews of the PCIMS reports are also used
                   to complete the final evaluation of bid invitations. Marketing
                   specialists are responsible for assuring that the agency adheres to the
                   regulations and policies for small business programs, such as
                   Historically Underutilized Business Zones (HUBZones). This program
                   provides help to small firms and businesses located in economically
                   depressed areas throughout the United States. To meet these
                   HUBZones requirements, marketing specialists are frequently required
                   to allot portions of the overall award to non-winning bidders and
                   generate new modified reports, based on these constraints. After the
                   marketing specialist has completed all analytical operations in PCIMS,
                   the bid analysis and recommended purchases go through several “bid
                   sessions” with different levels of management. The “bid sessions” are
                   a time when marketing specialists, contracting officers, and managers
                   get together for discussion of all aspects of the purchase. The “bid
                   sessions” allow management to review the analytical preparation and
                   PCIMS reports and make final approval of the purchase. Once final
                   awards are determined, post award reports are requested via PCIMS to
                   detail the contract abstracts and create delivery and forwarding notices.

                   While PCIMS reports are being used to ensure proper awarding of
                   contracts, the reports are not being used to analyze bidding and award
                   data for indications of collusive bidding activities. AMS does not have
                   any written policies, procedures, or instructions directly related to
                   monitoring or identifying potential collusive bidding activities or the
                   process or procedures for reporting them. In addition, an AMS official
                   informed us that AMS currently has no plans to implement any internal
                   or external reviews, studies, or special projects concerning collusive
                   bidding. Similarly, the data collected to prepare these PCIMS reports



USDA/OIG-A/01601-01-KC                                                               Page 7
                              and for historical vendor bid data from the DEBES and for PCIMS is
                              not used or analyzed to assess potential antitrust activities.

                              AMS personnel told us that they do not focus efforts toward analyzing
                              data for potential antitrust activity among their vendors because, if such
                              activity did occur, it is viewed as only having a nominal effect on the
                              agency’s commodity purchases. An AMS official stated that the agency
                              works closely with available market information; therefore, they believe
                              the impact of any potential collusive bidding would be nominal based on
                              the premise that AMS would not purchase commodity food products at
                              prices significantly in excess of the applicable market prices. AMS
                              personnel further stated that the marketing specialists work closely with
                              the vendors and based on their knowledge of their vendors, they would
                              know if the bids were submitted inconsistent with market conditions. For
                              example, the marketing specialist would become suspicious if an
                              abnormal amount of identical bids were submitted for an invitation.
                              Therefore, AMS relies on the bid analyses directed towards
                              reasonableness of purchases to ultimately detect potential collusive
                              bidding among the vendors.

                              Since 1984, AMS had documentation to support the referral of only one
                              case of potential collusion to the DOJ. This 1999 case involved a vendor
                              whose bid was allegedly prepared by a competitor. AMS became aware
                              of the potential for collusion when the vendor faxed in a bid to AMS that
                              included the competitor’s name, facsimile number, and other information
                              similar or identical to one competitor’s bid. Although the case showed
                              strong potential for possible collusion, the DOJ declined to investigate.
                              During our review, AMS personnel brought to our attention another
                              possible antitrust situation they identified by noting an excessive numbers
                              of tie or identical bids submitted for ten invitations for a variety of frozen
                              lamb roast products. Each of the ten invitations had at least one tie bid
                              with six invitations having tie bids ranging from six to twenty-seven tie
                              bids submitted. AMS did not cancel the cited invitations before they
                              awarded the contracts7. AMS did not become concerned that these
                              conditions could be representative of collusive activities until after it
                              awarded the contracts. Subsequently AMS personnel felt these cases
                              should be referred to the DOJ for investigation into possible collusion and
                              they began preparing this case for referral during our review. The case is
                              still pending with DOJ.

                              We noted similar conditions with respect to an audit of
                              FSA/CCC (Commodity Credit Corporation) Bidding Procedures and
                              Awards for Commodities.8 In response to our report, FSA stated that it
                              is in the process of developing and implementing an automated system

7
  FAR 14 Subpart 14.404-1(c) allows the agency head to cancel the invitations and reject all bids if the bids were not
independently arrived at in an open competition, were collusive, or were submitted in bad faith.

USDA/OIG-A/01601-01-KC                                                                                       Page 8
                           for identifying potential collusive bidding patterns from historical
                           vendor bid data.

                           Since AMS and FSA share DEBES and PCIMS for accepting and
                           analyzing bids and awarding contracts, we believe that AMS and FSA
                           would benefit by engaging in discussions related to shared
                           implementation of an automated system for tracking and analyzing
                           historical bid data for potential antitrust activity.

                           Lastly, we learned that since 1999, AMS has not held formal training
                           courses for its commodity procurement staff regarding collusive
                           bidding practices. AMS personnel said that, during the summer of
                           1999, the DOJ provided a training course on collusive bidding;
                           however, no other training had been provided since that time.
                           Furthermore, the official said that although AMS has hired new
                           procurement staff, these individuals have not received any formal
                           training regarding preventing and detecting antitrust activities.
                           According to the official, the new staff members were provided a
                           pamphlet describing signs of antitrust activity. We believe the entire
                           procurement staff would benefit from periodic training on the types and
                           signs of antitrust activities and the detection of potential violations.


Recommendation No. 1

                           Coordinate with FSA to develop and implement an automated
                           computer software package to analyze historical vendor bid
                           information on an ongoing basis for providing potential leads of
                           collusive bidding practices for procuring commodities. The shared
                           system must be capable of analyzing data for both FSA and AMS.

                           Agency Response.

                           AMS concurs with this recommendation. AMS has been in contact
                           with FSA and will continue to coordinate with FSA in looking at
                           potential automated solutions. AMS will also work with FSA to
                           prevent duplication of efforts. FSA has performed extensive market
                           research but has not found a clear cost effective solution. According to
                           AMS, FSA will also look into the Risk Management Agency’s use of
                           data mining operations as a possible avenue to analyze bids for
                           collusive bidding.

                           AMS and FSA face the limitation of identifying software packages that
                           will work with their aged computer system, PCIMS, which is used to

8
 Audit Report No. 03008-2-KC, Farm Service Agency and Commodity Credit Corporation Bidding Procedures and
Awards for Commodities, dated September 25, 2003.

USDA/OIG-A/01601-01-KC                                                                            Page 9
                   manage the commodity operations. The PCIMS represents 1980’s
                   technology and is relatively inflexible. The Department has recognized
                   the need to replace PCIMS and has requested funding for that effort in
                   the FY 2005 budget request. Congress approved funding and AMS and
                   FSA are currently waiting for OMB to apportion the funding. AMS
                   anticipates being able to work with FSA by August 31, 2005, to review
                   the possibilities of a shared system.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 2

                   Develop in-house, or contract for, an automated computer software
                   package that can adequately analyze historical vendor bid information
                   on an ongoing basis and provide potential leads on collusive bidding
                   practices for procuring commodities if a shared system with FSA is not
                   feasible.

                   Agency Response.

                   AMS concurs with this recommendation. AMS and FSA will work
                   together to find solutions that meet both agencies needs. The response
                   also indicated that PCIMS is in the process of being replaced, and since
                   both AMS and FSA will share the new system for commodity
                   purchases, AMS personnel do not believe it will be likely that AMS
                   will adopt a system to identify collusive bidding apart from FSA. The
                   Department would not likely approve of AMS and FSA procuring
                   separate systems for both agencies to do the same task. However, in
                   the unlikely event that separate systems would be necessary, any
                   system AMS acquires would need to be compatible with the PCIMS
                   replacement; therefore, the acquisition of the system to analyze bids for
                   collusion could not take place until after the installation of the PCIMS
                   replacement. AMS does not expect the installation of the PCIMS
                   replacement to be finalized until FY 2009.

                   OIG Position.

                   We accept the management decision. Due to the length of the
                   timeframe for replacing PCIMS, AMS will need to provide a progress
                   report to the Office of the Chief Financial Officer (OCFO) yearly
                   showing the status of the process to complete implementation of the
                   planned system as well as any necessary revision to the system’s
                   planned completion date.



USDA/OIG-A/01601-01-KC                                                             Page 10
Recommendation No. 3

                   Develop and implement internal procedures requiring the review,
                   analysis, and reporting of commodity bids for indications of collusion.
                   Make antitrust enforcement an ongoing feature of AMS commodity
                   procurement activities by evaluating both current and historical vendor
                   bid information on a continuous basis and providing referrals of suspected
                   collusions to DOJ and/or OIG, as appropriate.

                   Agency Response.

                   AMS concurs with our recommendation. AMS has procedures in place
                   for analyzing bids. AMS will be strengthening the procedures and
                   adding them to a desk manual. AMS expected to complete this task by
                   August 31, 2005.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 4

                   Develop a training program to alert new marketing specialists and
                   contracting personnel to the signs of antitrust activities and to stress the
                   importance of preventing and detecting collusion, particularly collusive
                   bidding practices amongst vendors and AMS contractors. Periodically
                   provide refresher training on detecting and preventing antitrust
                   activities to the entire procurement staff.


                   Agency Response.

                   AMS concurs with our recommendation. AMS is currently working
                   with the DOJ to provide training for all three procurement divisions
                   (Poultry, Fruit and Vegetables, and Livestock and Seed) in the areas of
                   price fixing, bid rigging, and market allocation schemes. Depending on
                   the outcome of the training, AMS will explore additional opportunities
                   with the DOJ. AMS expects the training to be completed by
                   August 31, 2005.

                   OIG Position.

                   We accept the management decision.




USDA/OIG-A/01601-01-KC                                                                Page 11
Scope and Methodology
                   Our review concentrated on AMS commodity procurements for school
                   years 2001 through 2004 and focused on the availability of internal and
                   automated controls to analyze domestic vendor bid data to detect
                   collusive bidding practices. Our review focused on AMS’ competitive
                   bid processes as AMS did not make any negotiated contract purchases
                   for the school year 2002-2003. However, for purposes of ascertaining
                   the number of suspected cases of antitrust activities reported to the DOJ
                   or OIG Investigations, we requested available documentation for all
                   referred cases since 1984. The audit was conducted at the AMS National
                   Office, located in Washington, D.C.

                   To accomplish our audit objectives, we reviewed Federal and
                   Departmental procurement regulations, policies, procedures, manuals,
                   and instructions and accessed available literature from private entities and
                   academic institutions to gather information about any processes or
                   procedures to detect, track, monitor, and report antitrust activities. At the
                   AMS National office, we interviewed management officials and
                   procurement staff from the AMS procurement divisions, Livestock and
                   Seed, Poultry, and Fruits and Vegetables, to identify and evaluate their
                   management controls over AMS bidding activities, particularly their
                   detection, tracking, monitoring, and reporting of potential collusive
                   bidding among their vendors. We identified and assessed the automated
                   controls available in the PCIMS. We judgmentally selected and reviewed
                   various data entry forms and reports related to receiving, processing,
                   evaluating, and awarding contracts for commodities.

                   To gain an understanding of the AMS management controls related to the
                   procurement process, we performed a walkthrough of the bidding and
                   award operations with a marketing specialist and contracting officer from
                   the Livestock and Seed Division to observe the process from the opening
                   of bids through the awarding of contracts for one ground beef invitation.
                   Since all three AMS procurement divisions conducted their procurements
                   similarly, we limited our observations to just this division’s commodity
                   procurement activities.

                   We judgmentally selected and reviewed purchase files for various
                   invitations from each of the three AMS procurement division to assess the
                   procedures being followed. We selected 16 purchase files for review,
                   including the information contained in the files for the cited ground beef
                   invitation award, we observed. We selected different commodity
                   products within each procurement division in order to assess the activities
                   performed by different marketing specialists. The information reviewed

USDA/OIG-A/01601-01-KC                                                                 Page 12
                   from the files included data entry forms and reports related to processing,
                   evaluating, and awarding contracts for commodities.

                   In addition, we obtained AMS procurement information from their
                   internet site. From the AMS Livestock and Seed procurement website,
                   we reviewed the purchases for 11 invitations for the school year
                   2003 through 2004. We used the information for these invitations to
                   illustrate that conditions described by the DOJ as conducive to price
                   fixing exist for AMS commodity procurements and vendors.

                   During the school year 2001-2002, AMS procured and distributed
                   approximately 1.2 billion pounds of food commodities costing over
                   $850 million for all of the domestic programs. During the school year
                   2002-2003, AMS procured and distributed approximately 1.4 billion
                   pounds of food commodities totaling over $900 million for domestic
                   programs.

                   During our fieldwork we also contacted the Office of the Chief
                   Economist and Office of the General Counsel to determine if they had
                   information or concerns related to AMS purchasing activities including
                   the ability of AMS to prevent, track, monitor, and report antitrust
                   activities.

                   The audit was performed in accordance with Government Auditing
                   Standards. We performed our fieldwork from February through
                   August 2004.




USDA/OIG-A/01601-01-KC                                                               Page 13
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 3




USDA/OIG-A/01601-01-KC                     Page 14
